           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  ADMINISTRATIVE COSTS CLAIMED
    BY THE ALABAMA DISABILITY
     DETERMINATION SERVICE


 September 2002     A-08-01-11050




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM

Date:      September 19, 2002                                                    Refer To:

To:        Paul D. Barnes
           Regional Commissioner

From:      Assistant Inspector General
            for Audit

Subject:    Administrative Costs Claimed by the Alabama Disability Determination Service
           (A-08-01-11050)


           OBJECTIVE
           Our objectives were to:

           ·   evaluate the adequacy of internal controls over the accounting and reporting of
               administrative costs claimed and the draw down of Social Security Administration
               (SSA) funds at the Alabama Disability Determination Service (AL-DDS) and
               Alabama Department of Education (AL-DE) to determine whether the controls were
               sufficient to ensure the proper draw down of funds and accounting and reporting of
               administrative costs;

           ·   determine whether costs claimed on the State Agency Report of Obligations for SSA
               Disability Programs (Form SSA-4513) for the period October 1, 1997 through
               September 30, 2000 were allowable and properly allocated; and

           ·   determine whether the aggregate of the SSA funds drawn down agreed with total
               expenditures reported for disability determinations in Fiscal Years (FY) 1998 through
               2000.

           BACKGROUND
           The Disability Insurance (DI) program provides benefits to wage earners and their
           families in the event the wage earner becomes disabled. The Supplemental Security
           Income (SSI) program is a nationally uniform program that provides income to
           financially needy individuals who are aged, blind and/or disabled. SSA implements the
           general policies governing development of disability claims under the DI and SSI
           programs. A designated agency in each State performs disability determinations
           according to Federal regulations.


           Audit of Administrative Costs Claimed by the Alabama DDS (A-08-01-11050)
Page 2 – Paul D. Barnes

Each agency determines claimants’ disabilities and is required to maintain adequate
evidence to support its determinations. To assist in making proper disability
determinations, SSA authorizes each agency to purchase medical examinations, x-rays
and laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

The designated agency for the State of Alabama is the AL-DDS, a division within the
AL-DE. Parent agencies, such as the AL-DE, often provide administrative services (that
is, accounting, purchasing, and personnel) to the State designated Disability
Determination Service agency (DDS). SSA reimburses each DDS for 100 percent of
the allowable expenditures reported quarterly on Form SSA-4513, State Agency Report
of Obligations for SSA Disability Programs.

SCOPE AND METHODOLOGY
We obtained evidence to evaluate the allowability and appropriateness of recorded
financial transactions under the provisions of Office of Management and Budget Circular
A-87, Cost Principles for State, Local and Indian Tribal Governments, and SSA’s
Program Operations Manual System (POMS).

We reviewed $89,930,361 in administrative costs the AL-DE reported for AL-DDS
operations for the period October 1, 1997 through September 30, 2000. This amount
included costs associated with SSA’s Automation Investment Funds (AIF) and
Information Technology System (ITS) funding activities. Our audit coverage included
any subsequent financial activity through June 30, 2001, which affected FYs 1998
through 2000. As of June 30, 2001, the AL-DE reported $31,194 in outstanding
obligations for FY 2000, which are included in the amount shown above. The AL-DE
liquidated these obligations during the fourth quarter of FY 2001.

In reviewing the costs reported by AL-DE, we obtained an extract of disbursements,
totaling $89,910,608, for the audit period.1 The extract included 285,621 records,
totaling $25,680,953, relating to medical evidence of record and consultative exams
(MER/CE); 31,604 records, totaling $45,408,771, for personnel costs; 37,262 records,
totaling $6,088,540, for other non-personnel costs; 73 transactions, totaling
$4,003,098, for office space rental costs; 88 records, totaling $ 320,650, for AIF/ITS
funding costs; and 46 records, totaling $8,408,596, for indirect costs transactions.

To test the costs claimed, we randomly selected 90 records, totaling $20,580 or
.08 percent, for MER/CE costs and 90 records, totaling $116,330 or 1.9 percent, of
other non-personnel costs. We selected 30 personnel records, totaling $50,911 or


1
 The extract of disbursements exceeded the disbursements AL-DE reported on Forms SSA-4513 by
$11,441. When preparing Forms SSA-4513, the AL-DE reduced actual disbursements by $11,313 for
miscellaneous refunds and receipts. Also, the extract of disbursements included $128 more for medical
costs than AL-DE reported for the audit period.


Audit of Administrative Costs Claimed by the Alabama DDS (A-08-01-11050)
Page 3 – Paul D. Barnes

 .1 percent, for review and examined 100 percent of the records for office space rental
costs and AIF/ITS transactions. We reviewed indirect costs by verifying that the
approved indirect cost rate had been applied to the appropriate modified direct cost
base for each year.

We also:

·   reviewed applicable Federal regulations and pertinent parts of SSA’s POMS, section
    DI 39500, DDS Fiscal and Administrative Management;

·   interviewed AL-DE and AL-DDS staff;

·   reviewed the AL-DE’s and AL-DDS’s policies and procedures;

·   documented our understanding of the AL-DE’s and AL-DDS’s systems of internal
    controls over the accounting and reporting of administrative costs;

·   evaluated and tested internal controls regarding accounting and financial reporting;

·   traced the administrative expenditures AL-DE reported on Forms SSA-4513 to its
    accounting records;

·   documented our understanding of the AL-DE’s procedures and internal controls for
    drawing down SSA funds;

·   analyzed AL-DE’s draw downs of SSA funds and reconciled them with reported
    expenditures;

·   reviewed the Alabama Department of Examiners of Public Accounts’ Single Audit
    reports and related working papers for the period October 1, 1997 through
    September 30, 2000; and

·   conducted a physical inventory of equipment items AL-DE purchased during our
    audit period and selected computer hardware items SSA provided to AL-DDS.

We performed work at AL-DDS’s offices in Birmingham and Mobile, Alabama, and
 AL-DE’s and Alabama Department of Examiners of Public Accounts’ offices in
Montgomery, Alabama. We conducted our audit from July 2001 through March 2002 in
accordance with generally accepted government auditing standards.

RESULTS OF REVIEW
Based on our examination, the AL-DE and AL-DDS had adequate internal controls over
accounting and reporting of administrative costs and draw downs of SSA funds, with the
exception of controls over property. Tests of the amounts the AL-DE reported on forms


Audit of Administrative Costs Claimed by the Alabama DDS (A-08-01-11050)
Page 4 – Paul D. Barnes

SSA-4513 showed the AL-DE had accurately reported the administrative costs AL-DDS
incurred for disability determination activities during our audit period. Our tests of
AL-DE’s claimed costs also showed the costs were allowable and properly allocated.
We did not identify any point in time during our audit period when cumulative draw
downs for a given year exceeded cumulative disbursements. However, as of
June 30, 2001, disbursements for FY 1998 exceeded draw downs by $4,660. We
brought this to the attention of AL-DE personnel, and they drew down the funds.

The AL-DE’s and AL-DDS’s inventory controls were not adequate to ensure an accurate
accounting for and safeguarding of all equipment items acquired for the disability
programs. Our review showed that some equipment items the AL-DDS acquired during
the audit period were not properly labeled, and some items were not recorded in its
inventory. We also found that SSA had not reduced AL-DE’s authorized obligational
authority for AIF funding for FYs 1998 and 1999 and regular funding for FY 2000 even
though it had no outstanding obligations for those budget years.

AL-DE and AL-DDS Need to Strengthen Inventory Controls

POMS, section DI 39530.020 A, requires the DDS to label all property it acquires or that
SSA furnishes it to perform the disability determination function. However, AL-DDS
personnel did not label a mailing machine and supporting console, mail scale, and laser
facsimile machine that were purchased for and located in the Mobile, Alabama, DDS
office. AL-DDS officials were unaware they had not labeled these items and agreed to
do so.

POMS, section DI 39530.020 B.3, requires each DDS to maintain a current inventory of
equipment purchased for the disability program. However, AL-DE failed to include
some purchased items in its current inventory file. An employee misclassified seven
sorting units as workstations, which caused AL-DE to subsequently delete them from
their current inventory file. AL-DE officials acknowledged they had misclassified the
sorting units and agreed to add them to the active inventory file.

SSA Needs To Promptly Reduce AL-DE’s Authorized Funding Level

POMS, section DI 39506.200 C.5, requires that SSA reduce an agency’s obligational
authority (that is, authorized funding level) when it determines the agency no longer
needs the previously authorized funding level. Although AL-DE had liquidated all
outstanding obligations for FY 2000 (as of September 30, 2001), SSA had not reduced
the AL-DE’s remaining obligational authority ($30,821) as of March 2002. In addition,
SSA had not reduced AL-DE’s remaining obligational authority for its FY 1998 and 1999
AIF funding ($124 and $510, respectively). During our audit, we brought this matter to
the attention of SSA officials, and they reduced AL-DE’s obligational authority
accordingly.




Audit of Administrative Costs Claimed by the Alabama DDS (A-08-01-11050)
Page 5 – Paul D. Barnes

CONCLUSION AND RECOMMENDATIONS
The AL-DE and AL-DDS have adequate internal controls over the accounting and
reporting of administrative costs and the draw down of SSA funds. However, AL-DE
and AL-DDS need to strengthen their inventory controls to ensure they accurately
account for, label, and safeguard all equipment items acquired for the disability
program. Furthermore, SSA needs to ensure it promptly reduces AL-DE’s authorized
funding level when it determines that AL-DE no longer needs the remaining obligational
authority for a budget year.

We recommend that SSA:

1. Instruct AL-DE to establish controls to ensure it labels all property it acquires or that
   SSA furnishes it to perform the disability determination function.

2. Instruct AL-DE to establish controls to ensure it properly classifies equipment items
   and includes them in its current inventory file.

3. Reduce AL-DE’s authorized funding level after the end of each FY when it
   determines AL-DE has no further outstanding obligations attributable to that FY.

AGENCY COMMENTS AND OFFICE OF THE INSPECTOR GENERAL
RESPONSE
SSA agreed with our recommendations. Regarding Recommendation 1, SSA stated
that labels have been placed on the property in question and it is working with the DDS
and the parent agency to ensure that this oversight does not occur in the future. To
address Recommendation 2, SSA stated it will work with the DDS and the parent
agency to ensure that equipment items continue to be classified correctly and that the
inventory of equipment is properly maintained. Regarding Recommendation 3, SSA
stated the Atlanta Regional Office’s Financial Management Team will work closely with
the Division of Field Disability Operations to ensure that authorized funding levels are
changed after the end of each FY when it determines that AL-DE has no further
outstanding obligations attributable to that FY.

We believe SSA’s response and planned actions adequately address our
recommendations.




                                                  Steven L. Schaeffer




Audit of Administrative Costs Claimed by the Alabama DDS (A-08-01-11050)
                                      Appendices
   APPENDIX A – Obligations Reported/Allowable for Disability Determination Service
   for Fiscal Years 1998 through 2000, as of June 30, 2001

   APPENDIX B – Obligations Reported/Allowable for Disability Determination Service
   for Fiscal Year 2000 – Regular Funding

   APPENDIX C – Obligations Reported/Allowable for Disability Determination Service
   for Fiscal Year 2000 – Information Technology System Funding

   APPENDIX D – Obligations Reported/Allowable for Disability Determination Service
   for Fiscal Year 1999 – Regular Funding

   APPENDIX E – Obligations Reported/Allowable for Disability Determination Service
   for Fiscal Year 1999 – Automation Investment Funds

   APPENDIX F – Obligations Reported/Allowable for Disability Determination Service
   for Fiscal Year 1998 – Regular Funding

   APPENDIX G – Obligations Reported/Allowable for Disability Determination Service
   for Fiscal Year 1998 – Automation Investment Funds

   APPENDIX H – Agency Comments

   APPENDIX I – OIG Contacts and Staff Acknowledgments




Audit of Administrative Costs Claimed by the Alabama DDS (A-08-01-11050)
                                                                                                         Appendix A

    OBLIGATIONS REPORTED/ALLOWABLE FOR DISABILITY DETERMINATION SERVICE FOR
                FISCAL YEARS 1998 THROUGH 2000, AS OF JUNE 30, 2001


                       TOTAL OBLIGATIONS                       DISBURSEMENTS                UNLIQUIDATED OBLIGATIONS

    COSTS           REPORTED          ALLOWABLE           REPORTED         ALLOWABLE         REPORTED        ALLOWABLE
                     BY AL-DE          PER AUDIT           BY AL-DE         PER AUDIT         BY AL-DE        PER AUDIT

PERSONNEL          $   45,408,771     $   45,408,771     $   45,408,771    $   45,408,771   $            0   $        0

MEDICAL                25,707,838         25,707,838         25,680,826        25,680,826         27,012          27,012

INDIRECT                8,412,404          8,412,404          8,408,597         8,408,597          3,807           3,807

ALL OTHER              10,401,348         10,401,348         10,400,973        10,400,973           375             375

TOTAL              $   89,930,361     $   89,930,361     $   89,899,167    $   89,899,167   $     31,194     $    31,194




Audit of Administrative Costs Claimed by the Alabama DDS (A-08-01-11050)
                                                                                                         Appendix B

    OBLIGATIONS REPORTED/ALLOWABLE FOR DISABILITY DETERMINATION SERVICE FOR
                       FISCAL YEAR 2000 - REGULAR FUNDING


                       TOTAL OBLIGATIONS                       DISBURSEMENTS                UNLIQUIDATED OBLIGATIONS

    COSTS           REPORTED          ALLOWABLE           REPORTED         ALLOWABLE         REPORTED        ALLOWABLE
                     BY AL-DE          PER AUDIT           BY AL-DE         PER AUDIT         BY AL-DE        PER AUDIT

PERSONNEL          $   15,713,454     $   15,713,454     $   15,713,454    $   15,713,454   $            0   $        0

MEDICAL                 8,916,672          8,916,672          8,889,660         8,889,660         27,012          27,012

INDIRECT                3,850,284          3,850,284          3,846,477         3,846,477          3,807           3,807

ALL OTHER               3,487,276          3,487,276          3,486,901         3,486,901           375             375

TOTAL              $   31,967,686     $   31,967,686     $   31,936,492    $   31,936,492   $     31,194     $    31,194




Audit of Administrative Costs Claimed by the Alabama DDS (A-08-01-11050)
                                                                                                      Appendix C

    OBLIGATIONS REPORTED/ALLOWABLE FOR DISABILITY DETERMINATION SERVICE FOR
            FISCAL YEAR 2000 – INFORMATION TECHNOLOGY SYSTEM FUNDING


                       TOTAL OBLIGATIONS                       DISBURSEMENTS             UNLIQUIDATED OBLIGATIONS

    COSTS           REPORTED          ALLOWABLE           REPORTED         ALLOWABLE      REPORTED        ALLOWABLE
                     BY AL-DE          PER AUDIT           BY AL-DE         PER AUDIT      BY AL-DE        PER AUDIT

PERSONNEL          $              0   $              0   $             0   $        0    $            0   $        0

MEDICAL                           0                  0                 0            0                 0            0

INDIRECT                          0                  0                 0            0                 0            0

ALL OTHER                    6,575              6,575              6,575         6,575                0            0

TOTAL              $         6,575    $         6,575    $         6,575   $     6,575   $            0   $        0




Audit of Administrative Costs Claimed by the Alabama DDS (A-08-01-11050)
                                                                                                         Appendix D

    OBLIGATIONS REPORTED/ALLOWABLE FOR DISABILITY DETERMINATION SERVICE FOR
                       FISCAL YEAR 1999 - REGULAR FUNDING


                       TOTAL OBLIGATIONS                       DISBURSEMENTS                UNLIQUIDATED OBLIGATIONS

    COSTS           REPORTED          ALLOWABLE           REPORTED         ALLOWABLE         REPORTED        ALLOWABLE
                     BY AL-DE          PER AUDIT           BY AL-DE         PER AUDIT         BY AL-DE        PER AUDIT

PERSONNEL          $   15,524,046     $   15,524,046     $   15,524,046    $   15,524,046   $            0   $        0

MEDICAL                 8,903,898          8,903,898          8,903,898         8,903,898                0            0

INDIRECT                1,616,225          1,616,225          1,616,225         1,616,225                0            0

ALL OTHER               3,502,719          3,502,719          3,502,719         3,502,719                0            0

TOTAL              $   29,546,888     $   29,546,888     $   29,546,888    $   29,546,888   $            0   $        0




Audit of Administrative Costs Claimed by the Alabama DDS (A-08-01-11050)
                                                                                                      Appendix E

    OBLIGATIONS REPORTED/ALLOWABLE FOR DISABILITY DETERMINATION SERVICE FOR
                 FISCAL YEAR 1999 – AUTOMATION INVESTMENT FUNDS


                       TOTAL OBLIGATIONS                       DISBURSEMENTS             UNLIQUIDATED OBLIGATIONS

    COSTS           REPORTED          ALLOWABLE           REPORTED         ALLOWABLE      REPORTED        ALLOWABLE
                     BY AL-DE          PER AUDIT           BY AL-DE         PER AUDIT      BY AL-DE        PER AUDIT

PERSONNEL          $              0   $              0   $             0   $        0    $            0   $        0

MEDICAL                           0                  0                 0            0                 0            0

INDIRECT                          0                  0                 0            0                 0            0

ALL OTHER                   12,350            12,350             12,350         12,350                0            0

TOTAL              $        12,350    $        12,350    $       12,350    $    12,350   $            0   $        0




Audit of Administrative Costs Claimed by the Alabama DDS (A-08-01-11050)
                                                                                                         Appendix F

    OBLIGATIONS REPORTED/ALLOWABLE FOR DISABILITY DETERMINATION SERVICE FOR
                       FISCAL YEAR 1998 - REGULAR FUNDING


                       TOTAL OBLIGATIONS                       DISBURSEMENTS                UNLIQUIDATED OBLIGATIONS

    COSTS           REPORTED          ALLOWABLE           REPORTED         ALLOWABLE         REPORTED        ALLOWABLE
                     BY AL-DE          PER AUDIT           BY AL-DE         PER AUDIT         BY AL-DE        PER AUDIT

PERSONNEL          $   14,171,271     $   14,171,271     $   14,171,271    $   14,171,271   $            0   $        0

MEDICAL                 7,887,268          7,887,268          7,887,268         7,887,268                0            0

INDIRECT                2,945,895          2,945,895          2,945,895         2,945,895                0            0

ALL OTHER               3,090,703          3,090,703          3,090,703         3,090,703                0            0

TOTAL              $   28,095,137     $   28,095,137     $   28,095,137    $   28,095,137   $            0   $        0




Audit of Administrative Costs Claimed by the Alabama DDS (A-08-01-11050)
                                                                                                      Appendix G

    OBLIGATIONS REPORTED/ALLOWABLE FOR DISABILITY DETERMINATION SERVICE FOR
                 FISCAL YEAR 1998 – AUTOMATION INVESTMENT FUNDS


                       TOTAL OBLIGATIONS                       DISBURSEMENTS             UNLIQUIDATED OBLIGATIONS

    COSTS           REPORTED          ALLOWABLE           REPORTED         ALLOWABLE      REPORTED        ALLOWABLE
                     BY AL-DE          PER AUDIT           BY AL-DE         PER AUDIT      BY AL-DE        PER AUDIT

PERSONNEL          $              0   $              0   $             0   $        0    $            0   $        0

MEDICAL                           0                  0                 0            0                 0            0

INDIRECT                          0                  0                 0            0                 0            0

ALL OTHER                 301,725            301,725            301,725        301,725                0            0

TOTAL              $      301,725     $      301,725     $      301,725    $   301,725   $            0   $        0




Audit of Administrative Costs Claimed by the Alabama DDS (A-08-01-11050)
                                                                           Appendix H

Agency Comments




Audit of Administrative Costs Claimed by the Alabama DDS (A-08-01-11050)
                                        SOCIAL SECURITY
MEMORANDUM

Date:   September 12, 2002                                                 Refer To: S2D4
                                                                           (D RKunzler 21399)
To:     Assistant Inspector General for Audit

From:   Regional Commissioner
        Atlanta

Subject: Alabama State DDS Audit -- RESPONSE to Your Memorandum (undated)

        We are pleased with the audit's finding that the Alabama Department of Education (AL-
        DE) and the Alabama DDS had adequate internal controls over accounting and reporting of
        administrative costs and draw downs of SSA funds. We do note that the audit found that
        the State of Alabama did not have adequate inventory controls and that we had not timely
        reduced Alabama's AIF funding for FYs 1998 and 1999 in the amounts of $124 and $510,
        respectively. We concur with the facts as presented in the Audit Report and agree that the
        recommendations are reasonable. Our specific response to the recommendations is as
        follows:

        1. Instruct AL-DE to establish controls to ensure it labels all property it acquires or that
           SSA furnishes it to perform the disability determination function.

        We concur with this recommendation and the DDS Parent Agency (Department of
        Education) has already taken action to correct the deficiency. Labels have been placed on
        the property in question and we are working with the DDS and the Parent Agency to ensure
        that this oversight does not occur in the future.

        2. Instruct AL-DE to establish controls to ensure it properly classifies equipment items and
           includes them in its current inventory file.

        We concur with this recommendation. The Parent Agency has already corrected his
        deficiency. We will work with the DDS and the Parent Agency to ensure that equipment
        items continue to be classified correctly and that inventory of equipment is maintained
        properly.

        3. Reduce AL-DE’s authorized funding level after the end of each FY when it determines
           AL-DE has no further outstanding obligations attributable to that FY.
   We concur with this recommendation and have modified procedures here in the Atlanta
   Regional Office. The Financial Management Team will work closely with the Division of
   Field Disability Operations (DFDO) to ensure that authorized funding levels are changed
   after the end of each FY when it has been determined that AL-DE has no further outstanding
   obligations attributable to that FY.

   Please contact me if I can be of further assistance. Staff questions should be referred to Bob
   Kunzler at (404) 562-1399 or Karen Killam at (404) 562-5727.



                                             Paul D. Barnes


cc: Dr. Ed Richardson, Superintendent, Alabama Department of Education
    Dr. Tommy Warren, Director, Alabama DDS
    Lenore R. Carlson, Acting Associate Commissioner, Office of Disability
    Anthony NiNoto, Acting Associate Commissioner, Office of Financial Policy and
    Operations
                                                                         Appendix I

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Kimberly A. Byrd, Director, Southern Audit Division (205) 801-1605

   Jeff Pounds, Deputy Director, Birmingham Field Office (205) 801-1606

Staff Acknowledgments
In addition to those named above:

   Cliff McMillan, Senior Auditor

   Reginia Grider, Senior Auditor

   Kimberly Beauchamp, Writer/Editor

For additional copies of this report, please visit our web site at http://ww.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-08-01-11050.
                          DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1

Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        96
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and
the coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic planning
function and the development and implementation of performance measures required by the
Government Performance and Results Act. OEO is also responsible for performing internal
reviews to ensure that OIG offices nationwide hold themselves to the same rigorous standards
that we expect from SSA, as well as conducting investigations of OIG employees, when
necessary. Finally, OEO administers OIG’s public affairs, media, and interagency activities,
coordinates responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.


                                      Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
